                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




      FINANCIAL MANAGEMENT SYSTEM &
          COMPLIANCE EVALUATION

                                               OF

                  WOODLAND PATTERN, INC.
                          MILWAUKEE, WISCONSIN


                             REPORT NO. SCE-09-04
                               OCTOBER 8, 2008




                           REPORT RELEASE RESTRICTION
This report may not be released to anyone outside of the National Endowment for the Arts (NEA)
without the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION

BACKGROUND
Woodland Pattern, Inc. (WP) was founded in 1979. WP is dedicated to the discovery,
cultivation and preservation of contemporary literature. Its goals are: 1) to promote a
lifetime practice of reading and writing; 2) to provide a forum and resources center for
writers/artists in its region; 3) to increase/diversify the audience for contemporary
literature through innovative multi-arts programming; 4) to offer a diversity of thought in
Milwaukee through a wide range of literary activities which feature work by some of the
best of our contemporary writers.


OBJECTIVE AND SCOPE
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB) and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). The evaluation was conducted in
accordance with the President’s Council on Integrity and Efficiency Quality Standards
for Inspections, as applicable.



PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General has not issued any audit
reports on Federal grants awarded to WP. As of our site visit on August 18, 2008, the
most recent issued independent auditor’s report on WP was for the year ended
December 31, 2006. The audit was conducted by Reilly, Penner & Benton LLP,
Certified Public Accountants & Consultants, which issued an unqualified (clean) opinion.
WP was not subject to the audit requirements of OMB Circular A-133.


                       RESULTS OF EVALUATION
Our evaluation concluded that WP inaccurately reported the expenditure amounts for
selected Grant No. 07-5200-7147, and did not have a Section 504 self-evaluation on file.




                                             1
REPORTED EXPENDITURES
For selected Grant No. 07-5200-7147, WP inaccurately reported expenditures of
$166,060 on its Financial Status Report (FSR). While we were onsite, WP was not able
to provide a list/ledger of expenditures under the grant. However, they were able to
identify some of the individual expenditures that would have been claimed, which we
used to sample for reasonableness and allowability of costs. Subsequent to our visit, WP
provided a list that showed total grant expenditures of $46,900. Therefore, WP met the
matching requirements of the grant.

We recommend that WP implement procedures to ensure that it accurately reports
expenditure amounts on its FSRs.


OTHER MATTERS
Segregation of Duties. WP has a limited number of staff with the executive director
handling almost all of the accounting functions. According to WP’s CPAs, this condition
is not unusual in entities the size of WP, however, a lack of segregation of duties does
represent a significant deficiency in internal controls. Management is aware of this
condition and has responded by providing some additional controls. Specifically, the
Board’s treasurer reviews the books and records with the executive director once a
month.

Accounting Manual. WP does not have a formalized accounting manual. Although
having a manual is not a NEA or OMB requirement, we believe that individual
employee’s knowledge would be further enhanced and potential systematic problems
could be avoided if WP formalized many of its own policies and procedures, and
guidance available on other grants and accounting matters. This formalized accounting
handbook could contain policies and procedures relating to financial management, grants
management, internal controls, budgeting, etc. An addendum to the handbook could
include publications such as the General Terms and Conditions for Grants, the Financial
Management Guide for Non-profit Organizations, the OMB Circulars and other
publications on Federal and State requirements.


SECTION 504 SELF-EVALUATION
WP did not have a Section 504 self-evaluation on file. As noted in NEA’s General
Terms, “A Section 504 self-evaluation must be on file at your organization.” A Section
504 Self-Evaluation Workbook is available online at
www.arts.gov/about/504Workbook.html.

Subsequent to our evaluation, WP provided us with a completed Section 504 Self-
Evaluation Workbook. Therefore, no additional action is required on this finding.




                                           2
EXIT CONFERENCE
An exit conference was held with WP’s executive director on August 18, 2008. The
executive director generally concurred with our findings and recommendation, and
agreed to take corrective action.


                          RECOMMENDATION

Woodland Pattern should implement procedures to ensure that accurate expenditure
amounts are reported on its Financial Status Reports.




                                          3
